TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Taxpayer Protection Program
                         Improves Identity Theft Detection;
                            However, Case Processing
                           Controls Need to Be Improved



                                           June 21, 2013

                              Reference Number: 2013-40-062




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE TAXPAYER PROTECTION                                cases showed that the controls relating to the
PROGRAM IMPROVES IDENTITY THEFT                        Taxpayer Protection Program data, cases
DETECTION; HOWEVER, CASE                               worked, and training were insufficient. For
PROCESSING CONTROLS NEED TO BE                         example:
IMPROVED                                                    Identity theft indicators are not always
                                                             input on taxpayer accounts.

Highlights                                                  Account Management Services system
                                                             cases are not clearly documented or
Final Report issued on June 21, 2013                         closed accurately.
                                                            Timeliness measures to accurately track
Highlights of Reference Number: 2013-40-062                  the time frame to resolve cases have not
to the Internal Revenue Service Commissioner                 been established.
for the Wage and Investment Division.
                                                            Documentation of employee training is not
IMPACT ON TAXPAYERS                                          sufficient.
As part of the IRS’s strategy to reduce identity       WHAT TIGTA RECOMMENDED
theft, it implemented the Taxpayer Protection
Program. This program reviews tax returns that         TIGTA recommended that the IRS develop
are proactively identified by the IRS as potential     processes to ensure that required identity theft
identity theft and stops fraudulent refunds before     indicators are placed on taxpayer accounts and
they are issued. TIGTA found that the IRS’s            employees properly update the Account
Taxpayer Protection Program improves identity          Management Services system with actions they
theft detection. However, case processing              take when working identity theft cases. In
controls need to be strengthened to reduce the         addition, timeliness measures need to be
burden on taxpayers victimized by identity theft.      developed to accurately track the time frame to
                                                       resolve Taxpayer Protection Program cases.
WHY TIGTA DID THE AUDIT                                Employees should complete required training,
This audit was initiated to evaluate whether the       and documentation should be maintained in the
Taxpayer Protection Program helped the IRS             Enterprise Learning Management System.
effectively assist taxpayers and resolve identity      The IRS agreed with all the recommendations.
theft cases. The Taxpayer Protection Program           The IRS plans to refine existing procedures to
is crucial to the IRS’s efforts to combat tax          ensure that appropriate identity theft indicators
refund fraud and help victims of identity theft        are placed on taxpayer accounts, develop a
receive their refunds. This review addresses the       process for managers to review employee
IRS’s major management challenge of Tax                updates on cases, form a cross-functional group
Compliance Initiatives.                                to establish tracking methodologies for
WHAT TIGTA FOUND                                       measuring cases from initial contact through
                                                       case closure, and ensure that employee training
The Taxpayer Protection Program improves               is updated on the Enterprise Learning
identity theft detection. In Calendar Year 2012,       Management System.
the program identified 324,670 tax returns that
involved identity theft and prevented the
issuance of fraudulent tax refunds totaling
$2.2 billion. These tax returns were identified
before processing was completed to protect tax
refunds from being issued.
However, controls over identity theft tax returns
worked in the Taxpayer Protection Program
need to be strengthened. Tests of identity theft
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 21, 2013




 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Taxpayer Protection Program
                             Improves Identity Theft Detection; However, Case Processing
                             Controls Need to Be Improved (Audit # 201240038)

 This report presents the results of our review to evaluate whether the Internal Revenue Service’s
 (IRS) Taxpayer Protection Program helped the IRS effectively assist taxpayers and resolve
 identity theft cases. This audit is included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                          The Taxpayer Protection Program
                                     Improves Identity Theft Detection; However,
                                    Case Processing Controls Need to Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Taxpayer Protection Program Improves
          Identity Theft Detection ................................................................................ Page 5
          Case Processing Controls Need to Be Strengthened..................................... Page 7
                    Recommendations 1 through 4:......................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
              The Taxpayer Protection Program
         Improves Identity Theft Detection; However,
        Case Processing Controls Need to Be Improved




                Abbreviations

AMS       Account Management Services
IMF       Individual Master File
IRS       Internal Revenue Service
RICS      Return Integrity and Correspondence Services
TIGTA     Treasury Inspector General for Tax Administration
                                      The Taxpayer Protection Program
                                 Improves Identity Theft Detection; However,
                                Case Processing Controls Need to Be Improved




                                             Background

The Federal Trade Commission reported that identity theft was the number one complaint in
Calendar Year 2011. Government documents/benefits fraud was the most common form of
reported identity theft. Complaints about
Government documents/benefits fraud have increased             Identity theft was the
11 percent since Calendar Year 2009. Florida has the     number one consumer complaint
highest per capita rate of reported identity theft           for Calendar Year 2011.
complaints, followed by California and Georgia.1         Government documents/benefits
Identity theft affects tax administration in two ways:   fraud was the most common form
                                                              of reported identity theft.
fraudulently filed tax returns (refund fraud) and
misreported income (employment-related fraud).
Both can potentially harm taxpayers who are victims of identity theft. Figure 1 provides an
illustrative description of both refund fraud and employment-related fraud.
              Figure 1: Description of Refund and Employment-Related Fraud




         Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the identity theft
        process as it affects the IRS and taxpayers.

1
    Federal Trade Commission, Consumer Sentinel Network Data Book, p. 3 (Feb. 2012).
                                                                                                            Page 1
                                   The Taxpayer Protection Program
                              Improves Identity Theft Detection; However,
                             Case Processing Controls Need to Be Improved



Employment-related identity theft can affect taxpayers when the IRS attempts to take
enforcement actions against the taxpayer for allegedly unreported income. Refund fraud affects
the ability of innocent taxpayers to file their tax returns and receive their tax refunds in a timely
manner, which can create significant financial and emotional hardship on the victims.
In July 2005, TIGTA reported (and the IRS agreed) that the IRS needed a corporate strategy to
address the growing challenge of identity theft.2 The IRS stated that it had developed an
Enterprise Identity Theft Strategy. However, in March 2008, TIGTA reported that the IRS had
not placed sufficient emphasis on employment-related and tax fraud identity theft strategies.3
The IRS lacked the comprehensive data needed to determine the impact of identity theft on tax
administration. TIGTA recommended that the IRS develop and implement a strategy to address
employment-related and tax fraud identity theft that includes coordinating with other Federal
agencies, such as the Federal Trade Commission and the Social Security Administration, to
evaluate and investigate identity theft allegations relating to tax administration. Another
recommendation focused on improvements in the use of identity theft closing codes in the IRS
compliance functions.
Taxpayer Protection Program4
As part of the IRS’s strategy to reduce identity theft, the Wage and Investment Division’s Return
Integrity and Correspondence Services (RICS) organization implemented the Taxpayer
Protection Program. This program reviews tax returns that are proactively identified by the IRS
as potential identity theft. For the 2012 Filing Season,5 identity theft filters were programmed
into the IRS’ Dependent Database6 system. **********2*******************************
***************************************2************************************
**************************************2*************************************
**2**. Once tax returns are identified as potential identity theft, they are worked by the
Taxpayer Protection Program. The tax returns are held during processing until the IRS can
verify the taxpayer’s identity. If the individual’s identity cannot be confirmed, the IRS removes
the tax return from processing. This prevents the issuance of a fraudulent tax refund. Figure 2
shows the disposition of cases in the program’s inventory from January 1, 2012, through
January 10, 2013.




2
  TIGTA, Ref. No. 2005-40-106, A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity
Theft (Jul. 2005).
3
  TIGTA, Ref. No. 2008-40-086, Outreach Has Improved, but More Action Is Needed to Effectively Address
Employment-Related and Tax Fraud Identity Theft (Mar. 2008).
4
  Formerly known as the Taxpayer Protection Unit.
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  The Dependent Database is a ‘rules-based’ system that incorporates a scoring model and *****2**************
********2******** that examines tax returns in a prerefund environment.
                                                                                                      Page 2
                                     The Taxpayer Protection Program
                                Improves Identity Theft Detection; However,
                               Case Processing Controls Need to Be Improved



              Figure 2: Disposition of Taxpayer Protection Program Cases
                      (January 1, 2012, Through January 10, 2013)

            Status                                               Number              Percentage

            Non–Identity Theft Cases7                               4,229                 1%

            Open Cases                                              6,210                 2%

            Taxpayer Contacted the IRS by Letter                    7,392                 2%

            Taxpayer Contacted the IRS by Telephone               32,957                  9%
            IRS Letters to Taxpayer Returned
                                                                 130,173                 35%
            Undeliverable

            No Response From Taxpayer                            187,822                 51%

            Total                                                368,783                100%
          Source: IRS Identity Theft Case Tracking Database.

The Taxpayer Protection Program uses two databases and one system to track and maintain
taxpayer account activity.
       The Identity Theft Case Tracking Database is a database used to track cases identified by
        the IRS and worked in the Taxpayer Protection Program. Employees input the case
        status onto a spreadsheet and the results are transferred to the database. The database is
        used to periodically update8 the taxpayer accounts on the Individual Master File (IMF).
       The IMF is the IRS database that maintains transactions or records of individual taxpayer
        accounts and is accessed by employees throughout the IRS with a need to view
        taxpayers’ accounts. When taxpayers call the IRS and report identity theft, employees
        input an identity theft indicator directly on the taxpayer’s account on the IMF.
       The Account Management Services (AMS) system is a computer-based system used to
        answer and resolve taxpayers’ inquiries related to taxpayer accounts. The AMS system
        provides a common interface that allows users of multiple IRS systems to view history
        and comments from other systems and to access a variety of case processing tools
        without leaving the AMS system. All IRS employees are required to use the AMS
        system to research, document, and resolve taxpayer account contacts, adjustments, and
        referrals.


7
  The IRS matched these cases against information returns that it maintains and determined the cases were not
identity theft cases. The IRS subsequently released the refund.
8
  Batch processing is used to update the IMF.
                                                                                                           Page 3
                                The Taxpayer Protection Program
                           Improves Identity Theft Detection; However,
                          Case Processing Controls Need to Be Improved



This review focused solely on the Taxpayer Protection Program case processing controls. It did
not include an evaluation of the effectiveness of IRS filters in identifying tax refunds related to
identity theft. We are conducting a separate review to determine whether the IRS has improved
its programs and procedures to identify and prevent fraudulent tax refunds resulting from identity
theft. This review was performed at the Wage and Investment Division’s Return Integrity and
Correspondence Services function at the Austin Submission Processing Site in Austin, Texas,
during the period May 2012 through January 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 4
                                The Taxpayer Protection Program
                           Improves Identity Theft Detection; However,
                          Case Processing Controls Need to Be Improved




                                 Results of Review

The Taxpayer Protection Program Improves Identity Theft Detection
The Taxpayer Protection Program improves identity theft detection. In Calendar Year 2012, the
program identified 324,670 tax returns which involved identity theft and prevented the issuance
of fraudulent tax refunds totaling $2.2 billion. These tax returns are identified before processing
is completed to protect tax refunds from being issued.
The program stood up in three phases:                            During Calendar Year 2012, the
Phase One                                                        Taxpayer Protection Program
                                                                     prevented $2.2 billion
In November 2011, the Taxpayer Protection Program was              in fraudulent tax refunds.
piloted in the RICS organization with 10 employees
temporarily detailed to answer the Taxpayer Protection
Program toll-free telephone line and another 17 employees to work referral lists. Various IRS
offices, mainly from IRS’s Criminal Investigation, provided the Taxpayer Protection Program
with lists of taxpayer accounts that were compiled from seizures of checks, tax returns, or debit
cards at the time arrests were made or with lists found in perpetrators’ notebooks. Identity theft
indicators were proactively placed on the accounts of taxpayers who were found on these lists.
The IRS took this step to try to prevent tax-related identity theft before it occurred.
Phase Two
In January 2012, the RICS organization detailed an additional 10 employees to work identity
theft cases identified by new IRS filters developed ************2***********************
*****2**********. These filters identify tax returns during processing that meet ***2*******
*****************************************2*********************. Once identified,
letters are generated to taxpayers requesting that they contact the Taxpayer Protection Program
to confirm their identities before their tax returns are processed and refunds are issued.
Phase Three
In January 2013, the RICS organization separated the Taxpayer Protection Program’s
responsibilities into two functions: the Integrity and Verification Operations and the Business
Performance Lab functions. The Integrity and Verification Operations function detects,
evaluates, and prevents improper refunds while ensuring that actions taken are appropriate and
fair. The Business Performance Lab function develops and tests solutions to prerefund revenue
protection.



                                                                                             Page 5
                                 The Taxpayer Protection Program
                            Improves Identity Theft Detection; However,
                           Case Processing Controls Need to Be Improved



The Taxpayer Protection Program mailed 375,742 letters in Calendar Year 2012
requesting information from individuals
Once a tax return is identified as questionable, a letter is mailed to the individual at the address
on the tax return. The individual is asked to verify within 30 days that he or she filed the tax
return. The individual can respond by telephone, mail, or fax. If the individual contacts the IRS
within the 30 days and the IRS determines that the tax return was filed by the true owner of the
Social Security Number, the tax return is processed and the tax refund is issued. If an individual
contacts the IRS after the 30 days, the tax return is retrieved and a determination is made.
If the letter is returned undeliverable, there is no response, or the tax return is determined to be
identity theft, the IRS does not process the tax return. In these instances, the IRS places an
identity theft indicator on the taxpayer’s account.
During Calendar Year 2012, the IRS mailed 375,742 letters to individuals requesting identity
verification and received no response to 335,393 (89 percent) of those letters. Of the 40,349
(11 percent) letters to which individuals responded:
      31,695 individuals indicated that they had filed the tax return.
      8,654 individuals indicated that they had not filed the tax return.

The IRS significantly increased resources assigned to answer the Taxpayer
Protection Program’s toll-free telephone line
During the 2012 Filing Season, as many as 10 employees were tasked with answering the
Taxpayer Protection Program’s toll-free telephone line. The number of employees was
insufficient, and the IRS was not prepared to handle the volume of identity theft telephone calls
it received. Only 24 percent of the calls to the Taxpayer Protection Program in the 2012 Filing
Season reached an employee. To improve service to taxpayers victimized by identity theft, the
IRS transferred the responsibility for the Taxpayer Protection Program’s toll-free telephone line
to the Wage and Investment Division’s Accounts Management function, where more than
200 employees answered the Taxpayer Protection Program’s toll-free telephone line during the
2013 Filing Season.

Guidelines were developed for handling potential identity theft cases
The IRS updated its procedures and developed a processing guide to assist Taxpayer Protection
Program employees in working potential identity theft cases. These tools are updated
periodically as procedures change and employees make suggestions. Based on interviews with
program employees, the processing guide provides clear and current information that allows
them to effectively work cases.
In addition, the nine employees we interviewed provided positive comments about the Taxpayer
Protection Program. The employees believe that management is receptive to their concerns and

                                                                                               Page 6
                                      The Taxpayer Protection Program
                                 Improves Identity Theft Detection; However,
                                Case Processing Controls Need to Be Improved



suggestions and that the work they do makes a difference to taxpayers. All employees
interviewed are detailed to the Taxpayer Protection Program and some stated that, if given the
opportunity, they would want to be permanently assigned.

Case Processing Controls Need to Be Strengthened
Controls over identity theft tax returns worked in the Taxpayer Protection Program need to be
improved. Tests of identity theft cases showed that the controls relating to the Taxpayer
Protection Program data, cases worked, and training were insufficient. For example:
          Identity theft indicators are not always input on taxpayer accounts.
          AMS system cases are not clearly documented or closed accurately.
          Timeliness measures to accurately track the time frame to resolve cases have not been
           established.
          Documentation of employee training is not sufficient.

Identity theft indicators are not always being input on taxpayer accounts
Identity theft indicators are not always placed on taxpayers’ accounts in the IMF as required.
Our review of a statistical sample of 199 accounts from the 254,437 taxpayer accounts that the
Taxpayer Protection Program identified during the period January 13 through October 18, 2012,
identified that:
          A beginning case processing identity theft indicator was not input to 20 (10 percent)
           taxpayer accounts as required. The beginning case processing indicator is required to be
           input to a taxpayer account when a tax return is identified by the IRS as potential identity
           theft. This indicator allows the IRS to hold the tax return and prevent a refund from
           being issued until an employee can resolve the case.
          A case closing identity theft indicator was not input to nine (5 percent) of the 1869
           accounts for which case processing was completed. The case closing indicator is
           required to be input to a taxpayer account at the end of case processing confirming that
           the account has an identity theft issue. This action helps the IRS avoid sending a refund
           to an identity thief. This indicator is also posted to the accounts of taxpayers whose
           letters are returned undeliverable. When this indicator is not posted to the taxpayer’s
           account, the taxpayer continues to be at risk of having an identity thief file a fraudulent
           tax return using his or her identity. There is also the continued risk of the IRS issuing a
           fraudulent refund to an identity thief. Appropriate closing action also helps the IRS
           resolve the case by maintaining a history of actions it has taken.

9
    Of the 199 cases we sampled, case processing was complete for 186.
                                                                                                Page 7
                                    The Taxpayer Protection Program
                               Improves Identity Theft Detection; However,
                              Case Processing Controls Need to Be Improved



Required indicators were not placed on the IMF taxpayer accounts because Taxpayer Protection
Program employees did not consistently follow procedures to input these indicators. We also
found that the electronic update process used by the program to place required identity theft
indicators on taxpayer’s IMF accounts was not always updating the accounts with the indicators.
For example, program employees enter information into the Identity Theft Case Tracking
Database, which is periodically used to electronically update the IMF. These updates should add
the required indicators to taxpayer accounts. However, we determined that accounts are not
always being updated because some cases have a Taxpayer Identification Number10 in the
Identity Theft Case Tracking Database in a different format than the format on the IMF. The
following example describes this weakness: (hypothetical example)
        The IRS creates a temporary Taxpayer Identification Number for a potential identity theft
        victim in order to remove the questionable tax return transactions from the taxpayer’s
        account. These temporary Taxpayer Identification Numbers include an asterisk at the
        end of the number (i.e., XXX-XX-XXXX*). However, when a Taxpayer Protection
        Program employee adds this case to the Identity Theft Case Tracking Database, the
        employee does not include the asterisk in the Taxpayer Identification Number. When the
        program performs its electronic update process to update the IMF accounts with the data
        in its Identity Theft Case Tracking Database, the identity theft indicator is not posted to
        the taxpayer’s IMF account because the Taxpayer Identification Number in the IMF has
        the asterisk and the one in the Identity Theft Case Tracking Database does not, which
        results in a mismatch.

AMS system cases are not clearly documented or closed accurately
Employees in the Taxpayer Protection Program are not properly updating the AMS system with
the actions taken to work identity theft cases. Our review of 12 cases in the AMS system that
were shown as closed on the program’s Identity Theft Case Tracking Database found that in each
case, the notes and actions taken by employees were not adequately recorded in the AMS
system. For the 12 cases we reviewed, we were not able to determine by reviewing the AMS
system whether the IRS took the appropriate actions when working the case. In addition,
employees did not update three (25 percent) of the 12 cases in the AMS system to indicate that
the cases were closed. These cases were still shown as open in the AMS system.
Employees in the Taxpayer Protection Program are required to update the AMS system with the
history of actions they took to work the taxpayer case. These updates should reflect each access
to the taxpayer’s account. This is not only crucial for the employees in the program but also for
IRS employees in other functions who may use the AMS system to answer taxpayer questions.



10
  The IRS assigns temporary Taxpayer Identification Numbers to some taxpayers involved with a duplicate tax
return situation.
                                                                                                        Page 8
                                The Taxpayer Protection Program
                           Improves Identity Theft Detection; However,
                          Case Processing Controls Need to Be Improved



Accurately updating the AMS system is critical because managers use the system to identify the
inventory of open and closed cases and to review case work.
When taxpayers contact the IRS regarding their accounts and/or the status of their refunds, the
AMS system must clearly and accurately reflect the actions the IRS has taken on the cases to
enable the employees to effectively assist the taxpayers. If the AMS system is not current or
complete, the taxpayers may be burdened by being asked for repetitive information. Taxpayers
may also be given incorrect information on the status of their case. Inaccurate information in the
AMS system can also result in IRS resources being needlessly expended when employees have
to repeat actions that have already been taken by another employee.

Timeliness measures to accurately track the time frame to resolve cases have not
been established
The IRS has not established timeliness measures to accurately track the time frame for Taxpayer
Protection Program employees to resolve identity theft cases. The IRS stated that the average
time to resolve these cases is 15 minutes, which the IRS starts tracking with a taxpayer telephone
contact and ends with the case resolution. However, this measure does not accurately account
for the timeliness of casework in instances where the taxpayer corresponds by mail. For
example, some taxpayers contact the program by mail months prior to their first telephone
contact. In June 2012, we identified taxpayer response letters (i.e., taxpayer responses to the IRS
initial letter alerting the individual of the need to confirm his or her identity) that the IRS
received three months earlier, on March 6, 2012. As of June 2012, these response letters had not
been assigned to an employee. The timeliness resolution measure the IRS uses would not
account for the three-month or longer delay to work these cases.
IRS procedures require programs to establish performance measures and to track performance
against these measures. For the Taxpayer Protection Program, the IRS should establish
timeliness measures for resolving and closing identity theft cases. This measure should begin
from the IRS’s first contact with the taxpayer, either by letter or telephone. Without an
appropriate timeliness measure, the IRS cannot establish goals and evaluate the quality of service
provided to taxpayers by the Taxpayer Protection Program.

Documentation of employee training is not sufficient
The IRS could not provide support confirming that the 230 Taxpayer Protection Program
employees received required identity theft training to perform their assigned duties. This
training should instruct employees on how to perform their duties, such as inputting identity theft
indicators on taxpayers’ accounts and updating the AMS system with the actions taken on a case.
Although the IRS provided us with a list of employees who completed identity theft training, no
official training records were maintained that we could review to verify the type of training
received or to confirm that these employees in fact completed the training. In addition, we
determined that Taxpayer Protection Program management does not require employees to
                                                                                            Page 9
                                The Taxpayer Protection Program
                           Improves Identity Theft Detection; However,
                          Case Processing Controls Need to Be Improved



document their training in the Enterprise Learning Management System, which is the IRS’s
centralized storage location for employee training records. IRS managers are required to use the
Enterprise Learning Management System to document employee training. Without adequate
documentation, the IRS cannot be assured that Taxpayer Protection Program employees have
received training needed to work identity theft cases.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to ensure that required identity theft indicators are
placed on taxpayer accounts in the IMF by employees and the electronic update process.
       Management’s Response: IRS management agreed with the recommendation and
       will refine procedures to ensure that appropriate indicators are recorded on taxpayer
       accounts to document both the openings and closures of identity theft investigations.
Recommendation 2: Develop a process to ensure that employees are properly updating the
AMS system with actions they take when working identity theft cases, including closing the
case.
       Management’s Response: IRS management agreed with the recommendation and
       will develop a process for managers to review employee AMS updates on Taxpayer
       Protection Program cases. Updates will be made to Internal Revenue Manual 1.4.10,
       Resource Guide for Managers – Integrity & Verification Operations Managers Guide, to
       address this new process.
Recommendation 3: Develop a timeliness measure to accurately track the time frame to
resolve Taxpayer Protection Program cases. This measurement should start from the first
taxpayer contact until the case is ultimately closed.
       Management’s Response: IRS management agreed with the recommendation and
       will develop a timeliness measure for Taxpayer Protection Program case resolution. A
       cross-functional group will be formed to establish tracking methodologies for measuring
       Taxpayer Protection Program cases from initial contact through case closure.
Recommendation 4: Ensure that employees complete required training to work identity theft
cases and that training records are maintained in the Enterprise Learning Management System.
       Management’s Response: IRS management agreed with the recommendation and is
       reconciling employee records in the Enterprise Learning Management System with those
       in the eWorkforce Management application, where the Taxpayer Protection Program
       training records were initially stored. Future training will be added to the Enterprise
       Learning Management System prior to delivery to ensure that employee records are
       updated as training is received.

                                                                                         Page 10
                                        The Taxpayer Protection Program
                                   Improves Identity Theft Detection; However,
                                  Case Processing Controls Need to Be Improved



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate whether the IRS’s Taxpayer Protection Program helped the
IRS effectively assist taxpayers and resolve identity theft cases. To accomplish our objective,
we:
I.         Identified the procedures and processes that the Taxpayer Protection Program has in
           place to work identity theft cases.
II.        Assessed the Taxpayer Protection Program’s process for working identity theft cases to
           ensure that all case actions are appropriate.
III.       Identified any deficiencies in the quality and completeness of training provided based on
           auditor analysis of the Taxpayer Protection Program processes and the case review
           results.
IV.        Determined and assessed the Taxpayer Protection Program’s performance measures.
           From the Identity Theft Case Tracking Database for the period January 13 through
           October 18, 2012, we obtained a statistical sample of 150 taxpayer accounts from a
           population 255,745 identity theft cases related to 254,437 taxpayer accounts. Some
           taxpayers had no records on the IMF, so we oversampled by selecting a sample of
           250 taxpayer accounts to ensure that we reached the sample of 150.
           All accounts were researched and we concluded that 199 of the 250 taxpayer accounts
           required a beginning case processing identity theft indicator and 186 taxpayer accounts
           required a case closing identity theft indicator. From the statistical sample of 199
           accounts, we determined whether the appropriate identity theft indicators were input to
           the taxpayer accounts. We used a statistical sample based on a 5 percent error rate, a ± 5
           percent precision, and a 99.5 percent confidence interval for each sample.
V.         Obtained data from the AMS system and compared it to the Identity Theft Case Tracking
           Database to determine the number of cases closed by Taxpayer Protection Program
           employees and whether the Taxpayer Protection Program’s data are reliable. We selected
           a judgmental sample1 of 12 cases from the population of 309,836 open and closed cases
           to research on the AMS system. We selected a judgmental sample because the Taxpayer
           Protection Program cases could not be identified in the AMS system and because we did
           not plan to project our results.


1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 11
                                     The Taxpayer Protection Program
                                Improves Identity Theft Detection; However,
                               Case Processing Controls Need to Be Improved



VI.     Determined actions being taken to improve the volume of calls answered during filing
        seasons.
VII.    Determined the validity, completeness, and accuracy of IRS data used during the audit.
        We selected an independent sample of the data extract to validate. We assessed the
        reliability of data extracted from the Identity Theft Case Tracking Database by:
        1) interviewing agency employees knowledgeable about the data and 2) selecting a
        judgmental sample of 10 cases and verifying that the data elements extracted matched the
        taxpayer account information on the Integrated Data Retrieval System.2 We determined
        that the data were reliable for the purposes of this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s internal guidelines used by
Taxpayer Protection Program employees to work identity theft cases and the management
information systems used to control identity theft cases. These systems include the Identity
Theft Case Tracking Database, the IMF, and the AMS system. We evaluated these controls by
reviewing cases, interviewing management, and reviewing policies and procedures.




2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 12
                               The Taxpayer Protection Program
                          Improves Identity Theft Detection; However,
                         Case Processing Controls Need to Be Improved



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Allen Gray, Director, Customer Service
Lena Dietles, Audit Manager
Tanya Adams, Lead Auditor
Jackie Forbus, Senior Auditor
Patricia Jackson, Senior Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor
Brian Hattery, Information Technology Specialist




                                                                                          Page 13
                             The Taxpayer Protection Program
                        Improves Identity Theft Detection; However,
                       Case Processing Controls Need to Be Improved



                                                                         Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Services and Operations, Wage and Investment Division SE:W
Director, Privacy, Governmental Liaison and Disclosure OS:P
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Customer Account Services, Accounts Management, Wage and Investment Division
SE:W:CAS:AM
Director, Submission Processing OS:CTO:AD:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                 Page 14
                                     The Taxpayer Protection Program
                                Improves Identity Theft Detection; However,
                               Case Processing Controls Need to Be Improved



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 37,882 taxpayer accounts with no applicable identity
    theft indicator (see page 7).
Our review of a statistical sample of 199 accounts from 254,437 taxpayer accounts that the
Taxpayer Protection Program identified during the period January 13 through October 18, 2012,
determined that:
       A beginning case processing identity theft indicator was not input to 20 (10 percent)
        taxpayer accounts as required. Projecting these results to the population of
        254,437 accounts, potentially 25,571 accounts were not updated appropriately.1
       A case closing identity theft indicator was not input to nine (5 percent) of the 186
        accounts for which case processing was completed. Projecting these results to the
        population of 254,437 accounts, potentially 12,311 accounts were not updated
        appropriately.2




1
  We projected our error rate over the population of taxpayer accounts by dividing the 20 accounts by 199 (our
sample) to get an error rate of 10.05 percent. We multiplied 10.05 percent by the 254,437 accounts in the population
to get 25,571 accounts that were not properly updated. Numbers do not match due to rounding.
2
  We projected our error rate over the population of taxpayer accounts by dividing the nine accounts that were not
updated by 186 (our sample) to get an error rate of 4.8387 percent. We multiplied this error rate by the
254,437 accounts in the population to get 12,311 accounts that are not updated with an identity theft indicator.
                                                                                                          Page 15
               The Taxpayer Protection Program
          Improves Identity Theft Detection; However,
         Case Processing Controls Need to Be Improved



                                                 Appendix V

Management’s Response to the Draft Report




                                                        Page 16
      The Taxpayer Protection Program
 Improves Identity Theft Detection; However,
Case Processing Controls Need to Be Improved




                                               Page 17
          The Taxpayer Protection Program
     Improves Identity Theft Detection; However,
    Case Processing Controls Need to Be Improved




 

                                                   Page 18
